—~

COCKLE

2311 Douglas Street A Le ] Brie f E-Mail Address:
Omaha, Nebraska 68102-1214 ga ee aid contact @cocklelegalbriefs. com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
e

Fax: (402) 342-4850
No. 20-645

STANDING AKIMBO, LLC, A COLORADO LIMITED
LIABILITY COMPANY; PETER HERMES,

AN INDIVIDUAL: KEVIN DESILET, AN INDIVIDUAL;
SAMANTHA MURPHY. AN INDIVIDUAL; AND
JOHN MURPHY, AN INDIVIDUAL,
Petitioners,

Vv.

UNITED STATES OF AMERICA, THROUGH ITS
AGENCY OF THE INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
REHEARING in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2869 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of July, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska &
RENEE J. GOSS 9. A Ch, 4

My Comm. Exp. Soptember 5, 2023
Affiant

 

 

 

Notary Public 41187
